TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Review and Verification of Individual
                Taxpayer Identification Number Applications
                     Has Improved; However, Additional
                 Processes and Procedures Are Still Needed



                                            May 2, 2013

                              Reference Number: 2013-40-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


REVIEW AND VERIFICATION OF                           WHAT TIGTA FOUND
INDIVIDUAL TAXPAYER IDENTIFICATION
                                                     The IRS initiated corrective actions to address
NUMBER APPLICATIONS HAS                              the majority of recommendations included in our
IMPROVED; HOWEVER, ADDITIONAL                        prior audit report. These actions are significantly
PROCESSES AND PROCEDURES ARE                         improving the identification of questionable ITIN
STILL NEEDED                                         applications. After the new procedures were put
                                                     into place, the number of applications rejected
                                                     as questionable increased from 226,011 for the
Highlights                                           period July through December 2011 to 340,659
                                                     for the same period in 2012.
Final Report issued on May 2, 2013
                                                     However, management still has not developed
                                                     organizational processes and procedures to
Highlights of Reference Number: 2013-40-052
                                                     work potential fraud schemes. Moreover,
to the Internal Revenue Service Commissioner
                                                     actions have not been taken to analyze
for the Wage and Investment Division.
                                                     information from previously processed ITIN
IMPACT ON TAXPAYERS                                  applications to identify indicators of potential
                                                     questionable applications that could be used to
In Calendar Year 1996, the IRS created the           proactively identify similar applications during
Individual Taxpayer Identification Number (ITIN)     processing.
so that individuals who are not eligible to obtain
Social Security Numbers could obtain an              In addition, tax examiners remain concerned
identification number for tax purposes. A prior      that management will reverse the current focus
TIGTA audit found that IRS management had            of ensuring that only qualified individuals receive
not established adequate controls to detect and      an ITIN to again emphasize quickly processing
prevent the assignment of an ITIN to individuals     ITIN applications. Finally, although the quality
submitting questionable applications. The            review process was expanded, some changes
assignment of an ITIN based on questionable          could inadvertently discourage tax examiners
documentation enables individuals to then use        from identifying questionable documents.
the ITIN to file tax returns to commit tax refund
                                                     WHAT TIGTA RECOMMENDED
fraud. In Calendar Year 2012, the IRS assigned
approximately 1.3 million ITINs.                     TIGTA recommended that the IRS develop
                                                     programming to flag ITIN applications that
WHY TIGTA DID THE AUDIT                              contain characteristics of previously identified
This audit was initiated in response to a            questionable ITIN applications when they are
complaint TIGTA received that IRS management         input into IRS computers. The IRS should also
was not supporting the implementation of             ensure that the quality review process continues
revised processes and procedures designed to         to emphasize the importance of the identification
improve on the identification of questionable        of questionable documents and that weekly
ITIN applications. A prior TIGTA audit found         team meetings are held with tax examiners to
that the ITIN application review and verification    discuss ITIN application processing trends,
process was so deficient that there was no           patterns, and concerns.
assurance that ITINs were not being assigned to      The IRS agreed with our recommendations
individuals submitting questionable applications.    and plans to evaluate implementing the
The overall objective of this review was to          programming changes as part of a risk
assess the IRS’s progress in identifying             assessment that will determine the scope and
questionable ITIN applications, including            associated costs and will also consider other
assessing the IRS’s implementation of corrective     controls and actions that can be implemented if
actions agreed to in response to TIGTA’s             the requested programming changes are not
previously issued ITIN report.                       funded. The IRS also plans to ensure that
                                                     weekly team meetings continue to be held.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 2, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Review and Verification of Individual
                              Taxpayer Identification Number Applications Has Improved;
                              However, Additional Processes and Procedures Are Still Needed
                              (Audit # 201340019)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 progress in identifying questionable Individual Taxpayer Identification Number applications.
 This review was initiated as the result of a complaint we received from an IRS employee that
 planned corrective actions in response to a prior Treasury Inspector General for Tax
 Administration audit1 had not been followed by the IRS. This review addresses the major
 management challenge of Fraudulent Claims and Improper Payments and is included in our
 Fiscal Year2 2013 Annual Audit Plan.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
   Treasury Inspector General for Tax Administration, Ref. No. 2012-42-081, Substantial Changes Are Needed to the
 Individual Taxpayer Identification Number Program to Detect Fraudulent Applications (July 2012).
 2
   A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
                         Review and Verification of Individual Taxpayer Identification
                          Number Applications Has Improved; However, Additional
                                Processes and Procedures Are Still Needed




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Progress Has Been Made in Identifying Questionable
          Individual Taxpayer Identification Number Applications ............................ Page 5
          More Proactive Processes and Procedures Still Need to
          Be Established .............................................................................................. Page 8
                    Recommendation 1:........................................................ Page 9

          Tax Examiners Raised Concerns That Productivity
          Goals Could Hinder the Identification of Questionable
          Applications .................................................................................................. Page 10
                    Recommendation 2:........................................................ Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Individual Taxpayer Identification Number
          Application Requirements Effective January 1, 2013 .................................. Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Review and Verification of Individual Taxpayer Identification
         Number Applications Has Improved; However, Additional
               Processes and Procedures Are Still Needed




                      Abbreviations

IRS             Internal Revenue Service
ITIN            Individual Taxpayer Identification Number
PTID            Patterns and Trends Identification Desk
TIGTA           Treasury Inspector General for Tax Administration
                     Review and Verification of Individual Taxpayer Identification
                      Number Applications Has Improved; However, Additional
                            Processes and Procedures Are Still Needed




                                            Background

We initiated this audit based on a complaint we received from an Internal Revenue Service (IRS)
employee that IRS management was not supporting the implementation of revised processes and
procedures designed to improve on the identification of questionable Individual Taxpayer
Identification Number (ITIN) applications.
The law requires that individuals employed in the United States have a Social Security Number
that is valid for employment. The Social Security Number is a unique nine-digit number used
for taxpayer identification, income reporting, and recordkeeping purposes. Individuals required
to file a Federal tax return are required to include an identifying number, referred to as a
Taxpayer Identification Number, on their tax returns. For the majority of filers, this is the
individual’s Social Security Number. In Calendar Year 1996, the IRS created the ITIN to
provide Taxpayer Identification Numbers to individuals
who do not have and are not eligible to obtain a Social
Security Number. Only individuals who have valid tax                  An ITIN is a tax processing
return filing requirements or are filing tax returns to claim a     number issued by the IRS. It is
refund of over-withheld tax are eligible to receive an ITIN.        a nine-digit number that always
                                                                             begins with the number nine
An ITIN is issued regardless of an individual’s immigration               (9XX-XX-XXXX).
status. However, individuals assigned an ITIN should
either be a resident not authorized to work in the United
States or a nonresident. Nonresident aliens must file a tax return if they are engaged in a trade or
business in the United States or if they have any other United States sources of income on which
the tax was not fully paid by the amount of tax withheld at the source. Nonresident aliens file
using a Form 1040NR, U.S. Nonresident Alien Income Tax Return.

Processing of ITIN applications
To obtain an ITIN, an individual, his or her spouse, or qualifying dependent(s) must complete
Form W-7, Application for IRS Individual Taxpayer Identification Number, and send it to the
IRS Submission Processing Center in Austin, Texas, or provide it to an IRS assistor at a
Taxpayer Assistance Center.1 Supporting documents are required to prove the applicant’s
identity and foreign status and must show the individual’s name and support for the claim of
foreign status. At least one document must show the individual’s photograph.2 ITIN applicants
are required to prove identity and foreign status and demonstrate a Federal tax reporting or filing

1
  IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
2
  Photo documents are not required for dependents younger than 14, or younger than 18 if a student.
                                                                                                           Page 1
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed



requirement when submitting the Form W-7 application and are not issued an ITIN until those
requirements are met.
The ITIN unit in the IRS Submission Processing Center in Austin, Texas, is responsible for
processing all ITIN applications. The mission of the ITIN Operations Department is to ensure
that ITINs are issued timely to qualifying individuals and used only for tax administration
purposes. Tax returns attached to the application are sent for processing, and IRS computer
systems are updated with information including the individuals’ names, addresses, and
identification numbers. Tax examiners in the ITIN Operations Department:
       Review Form W-7 and supporting documentation for completeness and correctness.
       Input all required data to the IRS’s ITIN Real-Time System.3
       Return original supporting documents to the applicant.
       Forward the tax return associated with the application for processing.
Based on the tax examiner’s review of an ITIN application and associated information, the
application will be either:
       Approved: The IRS mails a letter with the assigned ITIN to the applicant.
       Rejected: The IRS mails a letter notifying the individual that the ITIN application was
        rejected.
       Suspended: The ITIN application is suspended for a procedural issue or because it has
        questionable information. A procedural issue is one in which the applicant did not
        properly complete the application, such as a missing signature, or did not attach the
        required documentation to the application. Applications with just one discrepancy
        identified by the tax examiner as questionable can also be suspended.
For suspended applications, the case file, consisting of the ITIN application and the tax return, is
placed in a Suspense File for correspondence with the applicant for additional information. The
applicant has 45 days to respond. Once an applicant’s response is received, the application
package is pulled from the Suspense File and the documentation is reviewed by another tax
examiner to determine the next action to be taken. If the applicant does not respond within
65 days, the case file is pulled from the Suspense File and is systemically rejected. In Calendar
Year 2012, the IRS assigned approximately 1.3 million ITINs.




3
  A web-based application used by ITIN tax examiners to process and record applicant submissions. Tax examiners
review all applications and attached documents, then input the information into the Real-Time System.
                                                                                                        Page 2
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed



A Prior Treasury Inspector General for Tax Administration review identified
significant deficiencies in the review and verification of ITIN applications
At the request of Congress, in Fiscal Year4 2012 the Treasury Inspector General for Tax
Administration (TIGTA) conducted an audit based on complaints by two IRS employees made to
a U.S. Representative and a U.S. Senator. The employees alleged that IRS management was
requiring employees to assign ITINs even when the applications were fraudulent. In a July 2012
report, we substantiated many of the allegations.5
The audit found that the ITIN application review and verification process was so deficient that
there was no assurance that ITINs were not being assigned to individuals submitting
questionable applications. The audit also found that IRS management:
       Created an environment that discouraged tax examiners responsible for reviewing ITIN
        applications from identifying questionable applications.
       Eliminated successful processes used to identify questionable ITIN application fraud
        patterns and schemes.
       Established processes and procedures that were inadequate to verify each applicant’s
        identity and foreign status.6
In addition, TIGTA reported that management had not established adequate internal controls to
detect and prevent the assignment of ITINs to individuals submitting questionable applications.
The IRS accepted copies of documents to substantiate the applicant’s identity and foreign status,
which prevents adequate verification. Further, it had not developed sufficient criteria for
employees to use to identify questionable applications. The assignment of an ITIN based on
questionable documentation enables individuals to then use the ITIN to file tax returns to commit
tax refund fraud.
This review was performed at the Austin Submission Processing Center in Austin, Texas; the
ITIN Program Office in Atlanta, Georgia; and the Wage and Investment Division Headquarters
in Atlanta, Georgia, during the period September 2012 through February 2013. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. Detailed information on our audit objectives,


4
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
5
  TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer Identification Number
Program to Detect Fraudulent Applications (July 2012).
6
  Documentation must support that the individual resides in a foreign country.
                                                                                                      Page 3
                  Review and Verification of Individual Taxpayer Identification
                   Number Applications Has Improved; However, Additional
                         Processes and Procedures Are Still Needed



scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed




                                    Results of Review

Progress Has Been Made in Identifying Questionable Individual
Taxpayer Identification Number Applications
The IRS has initiated corrective actions to address seven of the nine deficiencies identified in the
prior TIGTA audit,7 which has allowed it to significantly improve its identification of
questionable ITIN applications. Tests show that the new requirements and the corrective actions
implemented have improved IRS tax examiners’ ability to identify and reject questionable ITIN
applications. Figure 1 provides the corrective actions the IRS has taken in response to our prior
report.
                          Figure 1: Corrective Actions Implemented
                         in Response to the Prior TIGTA Audit Report

        Recommendation                                              Corrective Action

                                          o   Internal guidance was updated to include more detailed procedures
                                              for identifying questionable documents.

                                          o   Coordination with the Department of Homeland Security allowed IRS
Develop more detailed procedures
                                              instructors to obtain training on identifying questionable
and deliver adequate training on
                                              documentation provided to support an ITIN application. The
reviewing documentation
                                              instructors subsequently trained all ITIN tax examiners.
supporting ITIN applications to
identify questionable documents.
                                          o   Better tools were provided to tax examiners to assist them in
                                              identifying fraudulent documents. The tools included black lights,
                                              magnifying glasses, and a booklet containing examples of fraudulent
                                              documents.

Expand the quality review process         o   The quality review process was expanded and includes an emphasis
to include emphasis on whether                on whether employees are identifying fraudulent documents.
employees are accurately
identifying fraudulent documents.




7
 TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer Identification Number
Program to Detect Fraudulent Applications (July 2012).
                                                                                                     Page 5
                       Review and Verification of Individual Taxpayer Identification
                        Number Applications Has Improved; However, Additional
                              Processes and Procedures Are Still Needed



          Recommendation                                                    Corrective Action

                                              o    Internal guidance was updated to instruct tax examiners to flag an
                                                   ITIN application for second review if they identify discrepancies with
Revise the criteria for identifying
                                                   the applications and/or supporting documentation. Discrepancies
questionable applications to
                                                   include missing security features, erasures, smudges, misspelled
include the significance of the
                                                   words, altered photographs, etc. A second review is performed by a
error.
                                                   lead tax examiner, who determines whether the application should
                                                   be suspended for insufficient supporting documentation.

                                              o    The Patterns and Trends Identification Desk (PTID) was established
                                                   in August 2012 to identify trends and schemes. The PTID is staffed
                                                   by two quality reviewers who collect data obtained from tax
                                                   examiners when they see a group of applications that have
Establish a process to evaluate
                                                   consistent traits and/or questionable features. The data are
questionable applications to
                                                   analyzed for patterns and trends. If patterns or trends are identified,
identify trends and schemes for
                                                   the information is elevated to the Austin Submission Processing
referral.
                                                   Planning and Analysis staff. This staff determines if an Alert should
                                                   be issued to tax examiners for them to be on the lookout for
                                                   applications with specific characteristics. To date, nine Alerts have
                                                   been issued.

Require original documents or                 o    On November 29, 2012, the requirement was finalized that anyone
documents certified by the issuing                 applying directly to the IRS for an ITIN must submit original
agency to be provided                              identification documents and/or certified copies from the issuing
in support of an ITIN application.                 agency for the primary, secondary, and dependent applicants.

                                              o    Procedures were changed requiring original documents and/or
                                                   certified copies from the issuing agency for all dependent
Discontinue the Certifying
                                                   applicants.8 However, Certifying Acceptance Agents can submit
Acceptance Agent designation and
                                                   copies of the documents they review for the primary and secondary
require all documentation in
                                                   applicants.
support of an ITIN application be
sent to the IRS for review and
                                              o    Requirements for Certifying Acceptance Agents were revised to
verification.
                                                   require them to take formal forensic training to help them identify
                                                   legitimate identification documents.

                                              o    ITINs issued after January 1, 2013, will expire after five years.
Develop a process to identify
                                                   Taxpayers who still need an ITIN after the five years will have to
and deactivate ITINs assigned to
                                                   reapply. The IRS continues to explore options for deactivating ITINs
individuals who no longer have
                                                   assigned to individuals prior to January 1, 2013, who no longer have
a tax filing requirement.
                                                   a tax filing requirement.

Source: TIGTA auditors’ analysis of actions taken in response to previous audit report.



8
    See Appendix IV for details of the new ITIN application requirements.
                                                                                                          Page 6
                 Review and Verification of Individual Taxpayer Identification
                  Number Applications Has Improved; However, Additional
                        Processes and Procedures Are Still Needed



The IRS has not completed corrective actions for the following two recommendations:
      Analyze information included in the Real-Time System to identify indicators of
       questionable ITIN applications for the purpose of proactively identifying questionable
       applications during processing.
       The IRS Information Technology organization has been providing data extracts of the
       Real-Time System to the ITIN Policy Office on a monthly basis since July 2012. The
       ITIN Policy Office has not analyzed these monthly extracts to identify patterns or trends
       that can be used to proactively identify questionable applications. IRS management
       noted that although the ITIN Policy Office was receiving these extracts, they experienced
       difficulties using the Real-Time System and the data were not always complete.
      Establish organizational lines of responsibility, processes, and procedures for
       detecting, referring, and working ITIN application fraud schemes.
       The IRS has not developed a cross-functional process to work ITIN application fraud
       schemes. The ITIN Policy Office is currently working with Criminal Investigation, the
       Examination Division, and the PTID to develop such a process.
Nevertheless, Figure 2 shows that after the new application requirements and procedures were
put into place in June 2012 , the number of applications rejected as questionable increased from
226,011 for the period July through December 2011 to 340,659 for the same period in 2012. For
the same six-month periods, the percentage of questionable applications rejected increased from
38 percent in 2011 to 64 percent in 2012.
                 Figure 2: Comparison of ITIN Application Rejects
             Before and After the New Requirements Were Implemented




                  Source: ITIN Production Report, Yearly Comparative Data for
                  Calendar Years 2011 and 2012.

                                                                                         Page 7
                        Review and Verification of Individual Taxpayer Identification
                         Number Applications Has Improved; However, Additional
                               Processes and Procedures Are Still Needed



More Proactive Processes and Procedures Still Need to Be
Established
The IRS has yet to begin using the data from its Real-Time System to identify the patterns and
trends of questionable ITIN applications. It has also not established organizational lines of
responsibility, processes, and procedures for detecting, referring, and working ITIN application
fraud schemes. These actions would allow the IRS to be more proactive in identifying and
preventing the erroneous issuance of ITINs.
Our analysis of Real-Time System data shows that the data can be used in conjunction with
updated application processing procedures to further improve the IRS’s ability to identify and
prevent ITIN application fraud. For example, the information contained in the Real-Time
System can be used to identify ITINs being assigned to individuals at the same address, which
could be indicative of fraudulent applications. Figure 3 provides examples of addresses used on
multiple ITIN applications processed during the period July through December 2012.9


                           Figure 3: Most Frequently Used Addresses
                   on ITIN Applications Processed From July–December 2012

                           Mailing Addresses Used                   ITINS Assigned to Individuals
                            on ITIN Applications                       Using These Addresses

                     #1 Address, Atlanta, Georgia                                 1,010

                     #2 Address, Washington, D.C.                                    423

                     #3 Address, Indio, California                                   156

                     #4 Address, Raleigh, North Carolina                             124

                     #5 Address, Auburndale, Florida                                 112

                     #6 Address, Indio, California                                   109

                     #7 Address, Salinas, California                                 108

                     #8 Address, Atlanta, Georgia                                    105

                     #9 Address, Cedar Rapids, Iowa                                  105
                     #10 Address, Bensenville, Illinois                               96
                 Source: Real-Time System extract of ITIN applications.



9
    Atlanta, Georgia, and Indio, California, had multiple street addresses with multiple ITIN applications.
                                                                                                              Page 8
                  Review and Verification of Individual Taxpayer Identification
                   Number Applications Has Improved; However, Additional
                         Processes and Procedures Are Still Needed



ITIN Policy Office officials stated that they are initiating discussions with other IRS functional
areas to establish organizational responsibilities. However, to date, no processes and/or
procedures have been implemented to assign organizational responsibilities for working the ITIN
application fraud schemes. The IRS noted that the identification of specific functional
responsibility for working fraud schemes is needed and that it is working towards developing
cross-coordinated processes and procedures.
The IRS Information Technology organization has been providing data extracts of the Real-Time
System to the ITIN Policy Office on a monthly basis since July 2012. IRS management noted
that although the ITIN Policy Office was receiving the extracts, they experienced difficulties
using the Real-Time System and the data provided in the extracts were not complete. In
addition, time constraints have also prevented the ITIN Policy Office from performing trend
analysis of the Real-Time System extract information. The ITIN Policy Office has been heavily
involved in developing the processes/procedures that were implemented in response to other
TIGTA recommendations. Management indicated that the ITIN Policy Office continues to work
with the Information Technology organization and ITIN Operations Department to perfect the
data received in the extracts and has used information from the Real-Time System to
support information included in ITIN alerts issued to Tax Examiners.
Once the Real-Time System data is analyzed and questionable characteristics of an ITIN
application are identified, the IRS should establish a process to proactively flag applications with
those characteristics identified as questionable. This proactive process should include alerting
tax examiners and developing programming that flags applications with specific questionable
characteristics (i.e., same address used on multiple applications) when the application
information is entered into the Real-Time System. This would ensure that questionable
applications are proactively identified when processed. The only opportunity to identify an ITIN
application based on fraudulent documentation is at the time the application is reviewed and
verified.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure that
programming is developed to flag ITIN applications that contain characteristics of previously
identified questionable ITIN applications when input into the Real-Time System.
       Management’s Response: Flagging ITIN applications containing characteristics of
       previously identified questionable traits at the time of input will provide greater assurance
       that fraudulent applications are identified and stopped. The IRS will prepare a risk
       assessment that, in addition to determining the scope and costs of programming, will
       address other mitigating controls that can be implemented in the event the requested
       programming changes are not funded. Completion of the risk assessment and a
       determination of actions to implement will complete this corrective action.

                                                                                             Page 9
                        Review and Verification of Individual Taxpayer Identification
                         Number Applications Has Improved; However, Additional
                               Processes and Procedures Are Still Needed



Tax Examiners Raised Concerns That Productivity Goals Could
Hinder the Identification of Questionable Applications
Our prior TIGTA audit determined that management created an environment that discouraged
tax examiners from identifying questionable ITIN applications. Although the IRS stated that the
mission of the ITIN Program was to ensure that ITINs are issued timely to only qualifying
individuals, IRS management’s primary focus was on quickly processing the applications rather
than on ensuring ITINs were issued only to qualifying individuals. Tax examiners were
expected to review approximately seven ITIN applications per hour (an average of 8.5 minutes
per application). The average review minutes per application was based on review times for the
prior four quarters and did not include the additional time that a diligent tax examiner needed to
evaluate and document questionable applications for referral.
During this audit, we conducted a survey of the tax examiners to assess the current ITIN unit
employees’ perceptions of how management regards the reviews of ITIN applications. The
survey was available to all tax examiners who worked both the day and night shifts on
November 14, 2012, and 153 tax examiners took the survey. Questions relating to tax examiner
perception of management included:
      Is management focused more on the volume of ITINs assigned or ensuring that only
       qualified individuals are assigned ITINs?
       Fifty-five (36 percent) of 153 tax examiners still believe management is emphasizing
       production over ensuring that only qualified individuals are assigned ITINs. Ninety-five
       (62 percent) of 153 tax examiners believe that management’s focus has changed to ensuring
       that only qualified individuals are assigned ITINs.10 However, of these 95 tax examiners,
       eight qualified their responses by stating that this is true only because production goals have
       been suspended. The IRS suspended tax examiner production goals in July 2012 because of
       the numerous changes being made to the ITIN unit procedures. Tax examiners remain
       concerned that, when/if production goals are reinstated, management will go back to focusing
       on production rather than on the identification of questionable ITIN applications.
      Does management support revised policies and procedures to better identify questionable
       documents or questionable applications (including flagging the application when only
       ONE questionable item exists)?
       Of the 153 tax examiners, 111 (73 percent) believe that management is supportive of the
       current revisions for the review and identification of questionable applications.
The IRS needs to explore a number of options for measuring the success of the ITIN unit if the
IRS does reinstate production goals (i.e., tax examiners are required to review a specific number


10
     The remaining three respondents did not respond to the question.
                                                                                              Page 10
                     Review and Verification of Individual Taxpayer Identification
                      Number Applications Has Improved; However, Additional
                            Processes and Procedures Are Still Needed



of applications per hour). The goals should be based on recent productivity, including the time
needed to sufficiently review applications to ensure that qualification requirements have been
met. Once a measurement process is established, management should communicate the new
goals so that the tax examiners understand that quality will not be sacrificed for production.

The quality review process continues to discourage the identification of
questionable ITIN applications
In our prior TIGTA report, we determined that quality reviewers would assign an error to a tax
examiner who incorrectly identified an ITIN application as questionable. ITIN Program
guidelines on Reviewing Supporting Identification Documentation cautioned tax examiners to
examine documents carefully to prevent unnecessary rejections or applications held in suspense.
In contrast, the guidelines did not caution tax examiners to carefully review documents to
identify fraudulent applications. A tax examiner was charged an error if the quality reviewer did
not agree with the three errors identified by the tax examiner.11 The charging of an error could
negatively impact a tax examiner’s performance rating, the length of their employment, and
whether they are called to return to duty (for seasonal tax examiners).
The IRS has taken steps to update its procedures to place more emphasis on tax examiners
identifying questionable identification documents associated with ITIN applications. Guidelines
currently state that an error will be charged for either of the following:
        A valid identification document was processed as a questionable discrepancy.
        An identification document that has a questionable trait was processed as valid.
However, because production goals have been suspended, quality reviewers are not currently
charging an error when the tax examiner identifies an ITIN application as being questionable
when it was actually a valid document.
Survey results show that when asked if the quality review process discourages them from
identifying questionable applications because they do not want to risk being charged an error,
79 (52 percent) of 153 respondents responded yes. They do not want to have an error charged
because it could negatively impact their performance rating, and for seasonal tax examiners, it
could affect whether they are called to return to duty. The survey responses combined with
interviews we held with tax examiners in October 2012 found that some tax examiners believe it
is better for them to not identify questionable documents and simply assign the ITINs to the
applicants.
The IRS must remain diligent that its ITIN quality review process is not inadvertently
discouraging tax examiners from identifying questionable applications. This will require


11
 IRS guidelines previously defined a questionable application as one for which the tax examiner identifies three or
more discrepancies on the application.
                                                                                                          Page 11
                  Review and Verification of Individual Taxpayer Identification
                   Number Applications Has Improved; However, Additional
                         Processes and Procedures Are Still Needed



effective analyses of the quality review data and consistent feedback to the tax examiners. This
feedback could be provided during the tax examiners’ required weekly meetings. IRS
management informed us that team meetings were required to be held weekly. However, the
team meetings have not always occurred weekly, and the content of the weekly meetings has not
been consistent among the teams. As part of our survey, we asked tax examiners if their team
had weekly meetings to discuss procedural changes. Only 98 (64 percent) out of 153 tax
examiners responded that they had participated in weekly team meetings.
Weekly team meetings are essential for management to communicate procedural changes to the
tax examiners, especially because tax examiners are given limited time to read issued updates.
IRS management should ensure that the weekly team meetings occur and that the meetings
include discussions on quality review trends as well as trends or patterns that are identified by
the PTID and Real-Time System data.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure that
the quality review process continues to emphasize the importance of tax examiners’
identification of questionable documents and that weekly team meetings are held with tax
examiners to discuss ITIN application processing trends, patterns, and concerns.
       Management’s Response: The ITIN Operations Department has incorporated this
       practice and will ensure that the team meetings continue to be held, where tax examiners
       may discuss ITIN application processing trends, patterns, and concerns.




                                                                                          Page 12
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed



                                                                                            Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objective was to assess the IRS’s progress in identifying questionable ITIN
applications. We also assessed the IRS’s implementation of corrective actions agreed to in
response to the TIGTA’s previously issued ITIN report.1 To accomplish our objectives, we:
I.      Assessed IRS actions taken to develop more detailed procedures and deliver adequate
        training to employees responsible for reviewing documentation supporting ITIN
        applications to identify questionable documents.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Determined if the IRS coordinated with the Department of Homeland Security
           regarding training and processes it could provide to improve detection of fraudulent
           documents.
        C. Determined if the training provided by the Department of Homeland Security was
           beneficial and clearly provided guidance on identifying false documents; in
           particular, documents from countries outside of the United States.
        D. Determined if employees’ ITIN training provided the proper amount of emphasis on
           identifying fraudulent applications.
        E. Interviewed employees who received the training to determine if the training met
           their needs and if they believed the training helps them to better identify fraudulent
           ITIN applications.
II.     Assessed IRS actions taken to expand the quality review process to include adequate
        emphasis on whether employees were accurately identifying fraudulent documents.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Interviewed quality review staff to determine how the quality review process works in
           the ITIN unit and identified any quality review projects and the applicable results.
III.    Assessed IRS actions taken to revise the criteria for identifying questionable applications
        to include the significance of an error.


1
 TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer Identification Number
Program to Detect Fraudulent Applications (July 2012).
                                                                                                    Page 13
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed



        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Interviewed employees of the ITIN unit to determine the criteria they use to identify
           questionable applications and determined if they are following the new procedures.
IV.     Assessed IRS actions taken to establish a process to evaluate questionable applications to
        identify trends and schemes for referral.
        A. Met with IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Interviewed ITIN Program Office employees to determine what processes were put in
           place to identify trends and obtained the results of any projects implemented.
V.      Assessed IRS actions taken to develop business processes and procedures that include
        evaluating and analyzing information included in the Real-Time System2 to identify
        indicators of questionable ITIN applications to proactively identify questionable
        applications during processing.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Analyzed the reports to determine if they will provide useful data for the ITIN unit.
        C. Evaluated extracts of the Real-Time System to identify multiple addresses used on
           ITIN applications.
        D. Validated the information contained in the extracts to the Real-Time System. Key
           data fields from the extracts were compared to the information on the Real-Time
           System and general sanity checks were performed on the data.
VI.     Assessed IRS actions taken to establish organizational lines of responsibility, processes,
        and procedures for detecting, referring, and working potential ITIN application fraud
        schemes.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Analyzed the procedures developed to determine if they will adequately address
           TIGTA’s recommendation and if they will benefit the ITIN unit.




2
  A web-based application used by ITIN tax examiners to process and record applicant submissions. Tax examiners
review all applications and attached documents, then input the information into the Real-Time System.
                                                                                                      Page 14
                    Review and Verification of Individual Taxpayer Identification
                     Number Applications Has Improved; However, Additional
                           Processes and Procedures Are Still Needed



VII.    Assessed IRS actions taken to require only original documents or documents certified by
        the issuing agency to be provided in support of an ITIN application.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Monitored ITIN press release information and any related procedural changes on this
           item for Fiscal Year3 2013.
VIII.   Assessed IRS actions taken to discontinue the Certifying Acceptance Agent designation
        and require that all documentation in support of an ITIN application be sent to the IRS for
        review and verification.
        A. Met with the IRS ITIN Program Office to determine if they have made any decisions
           related to discontinuing the Certifying Acceptance Agent designation.
        B. Monitored ITIN press release information and any related procedural changes on this
           item for Fiscal Year 2013.
IX.     Assessed IRS actions taken to develop a process to identify and deactivate ITINs
        assigned to individuals who no longer have a tax filing requirement.
        A. Met with the IRS ITIN Program Office to determine the status of implementing the
           recommendation.
        B. Monitored the ITIN unit and checked for any updates related to this recommendation
           for Fiscal Year 2013 and beyond.
X.      Assessed the environment created by management relating to processes and procedures
        followed by tax examiners for identifying questionable ITIN applications.
        A. Developed and administered a survey of ITIN unit employees to obtain their
           perception of management’s focus on identifying questionable ITIN applications.
        B. Assessed allegations received regarding management actions since the completion of
           our prior review.
        C. Assessed management’s process to ensure that changes in the identification of
           questionable ITIN applications made in response to TIGTA’s audit are being
           followed.




3
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 15
                 Review and Verification of Individual Taxpayer Identification
                  Number Applications Has Improved; However, Additional
                        Processes and Procedures Are Still Needed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Internal Revenue Manual and the
IRS’s policies, procedures, and practices for processing Forms W-7, Application for IRS
Individual Taxpayer Identification Number. We evaluated these controls by interviewing
management, examining applicable information, and reviewing Form W-7 case files that were
quality reviewed.




                                                                                        Page 16
                 Review and Verification of Individual Taxpayer Identification
                  Number Applications Has Improved; However, Additional
                        Processes and Procedures Are Still Needed



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kathleen A. Hughes, Audit Manager
Sharla J. Robinson, Audit Manager
Annette Bates, Senior Auditor
Sandra L. Hinton, Senior Auditor
Tracy M. Hernandez, Auditor




                                                                                     Page 17
                Review and Verification of Individual Taxpayer Identification
                 Number Applications Has Improved; However, Additional
                       Processes and Procedures Are Still Needed



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Austin Field Director, Submission Processing, Wage and Investment Division
SE:W:CAS:SP:AU
Deputy Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP:D
Program Manager, ITIN Program Office, Wage and Investment Division SE:W:CAS:SP:ITIN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                 Page 18
                     Review and Verification of Individual Taxpayer Identification
                      Number Applications Has Improved; However, Additional
                            Processes and Procedures Are Still Needed



                                                                                              Appendix IV

         Individual Taxpayer Identification Number
    Application Requirements Effective January 1, 2013

In response to concerns raised during our prior audit, the IRS issued a news release on
June 22, 2012,1 announcing interim changes to strengthen its procedures for issuing ITINs from
June 22, 2012, until a final decision was made. ITINs would not be issued based on applications
supported by notarized copies of documents. In addition, ITINs would not be issued based on
applications submitted through Certifying Acceptance Agents unless they attach original
documentation or copies of original documents certified by the issuing agency. The changes,
which were effective immediately, were designed to strengthen and protect the integrity of the
ITIN process while minimizing the impact on taxpayers.
Individuals applying directly to the IRS for ITINs are now required to submit original
documentation (or copies certified by the issuing agency) to the IRS to support their applications
for an ITIN. In addition to direct submission of original documents to the IRS, applicants may
also have the documents for the primary and secondary taxpayers verified by some key IRS
Taxpayer Assistance Centers, various U.S. Tax Attachés, and at Low-Income Taxpayer Clinics
and Volunteer Income Tax Assistance Centers that use Certifying Acceptance Agents.
The figure on the following page provides the options an ITIN applicant has to submit
documents when applying for an ITIN.




1
  IR-2012-62, IRS Strengthens ITIN Application Requirements; Interim Changes Will Protect the Integrity of the
ITIN Process (June 22, 2012).
                                                                                                        Page 19
                      Review and Verification of Individual Taxpayer Identification
                       Number Applications Has Improved; However, Additional
                             Processes and Procedures Are Still Needed



                                    Options for ITIN Applicant’s
                                   Submission of Documentation

    Applications                               Criteria for                                    Applicants
    Submitted to:                          Document Certification                               Covered

    IRS ITIN Operations          Direct applicant submission by mail.                            Primary
    Department (IRS’s            Original or copies certified by issuing agency.                 Secondary
    Austin, Texas, Campus2)
                                 Certify all approved document types.                            Dependents

    Participating IRS            In-person submission for each applicant.                        Primary
    Taxpayer Assistance          Original or copies certified by issuing agency.                 Secondary
    Centers
                                 Certify passport and national identification cards only.        Dependents
                                 All other original documentation is mailed with
                                 Form W-7, Application for IRS Individual Taxpayer
                                 Identification Number.

    IRS Tax Attachés             In-person submission for each applicant.                        Primary
    (London, Paris, Beijing,     Original or copies certified by issuing agency.                 Secondary
    Frankfurt)
                                 Certify all approved document types.                            Dependents

    Certifying Acceptance        In-person submission for each applicant.                        Primary
    Agents                       Original or copies certified by issuing agency.                 Secondary
                                 Certify all approved document types.
                                 Dependent’s original documentation is mailed with
                                 Form W-7.

    Educational Institutions     Applicants must obtain a certification letter from an           Primary
    (Colleges, Universities)     approved institution of the Student and Exchange                Secondary
                                 Visitor Program as a substitute for submission of the
                                 original identification documents with the Form W-7.            Dependents

      Source: IRS.gov.

Additionally, new ITINs will now be issued for a five-year period rather than an indefinite
period. The IRS states that this change will help ensure that ITINs are being used for legitimate
tax purposes.




2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 20
    Review and Verification of Individual Taxpayer Identification
     Number Applications Has Improved; However, Additional
           Processes and Procedures Are Still Needed



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 21
Review and Verification of Individual Taxpayer Identification
 Number Applications Has Improved; However, Additional
       Processes and Procedures Are Still Needed




                                                         Page 22
Review and Verification of Individual Taxpayer Identification
 Number Applications Has Improved; However, Additional
       Processes and Procedures Are Still Needed




                                                         Page 23
Review and Verification of Individual Taxpayer Identification
 Number Applications Has Improved; However, Additional
       Processes and Procedures Are Still Needed




                                                         Page 24
